<html>
<title> - HUMAN RIGHTS IN CUBA: A SQUANDERED OPPORTUNITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
                         HUMAN RIGHTS IN CUBA: 
                        A SQUANDERED OPPORTUNITY

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 5, 2015

                               __________

                           Serial No. 114-13

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
   
   
   
                             U.S. GOVERNMENT PUBLISHING OFFICE
93-159PDF                        WASHINGTON : 2015                             
   
_______________________________________________________________________________________                      
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c3d4cbe4c7d1d7d0ccc1c8d48ac7cbc98a">[email&#160;protected]</a>  
                
                      
                      
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Jorge Luis Garciia Peerez, Secretary General, Cuban National 
  Civic Resistance Front.........................................    15
Ms. Berta Soler Fernaandez, leader, Ladies in White (Damas de 
  Blanco)........................................................    19
Ms. Sara Martha Fonseca Quevedo, member, Ladies in White (Damas 
  de Blanco).....................................................    24
Mr. Geoff Thale, program director, Washington Office on Latin 
  America........................................................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Prepared statement..............................     4
Mr. Jorge Luis Garciia Peerez: Prepared statement................    17
Ms. Berta Soler Fernaandez: Prepared statement...................    22
Ms. Sara Martha Fonseca Quevedo: Prepared statement..............    26
Mr. Geoff Thale: Prepared statement..............................    31

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Christopher H. Smith: Statement of Christopher J. 
  Burgos of STFA.................................................    56
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Letter from the International 
  Committee of Former Cuban Political Prisoners..................    64
Mr. Jorge Luis Garciia Peerez: Agreement for Democracy in Cuba...    71
Ms. Berta Soler Fernaandez:
  IAC precautionary measure for the Ladies in White..............    72
  Report by Cubalex..............................................    77
The Honorable Christopher H. Smith:
  Cuba Section of Trafficking in Persons Report..................    83
  Letter to President Obama from the STFA........................    86
  Statement on the human rights of all...........................    88


                         HUMAN RIGHTS IN CUBA: 
                        A SQUANDERED OPPORTUNITY

                              ----------                              


                       THURSDAY, FEBRUARY 5, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good morning to everyone. And welcome to this 
very timely and important hearing on human rights in Cuba.
    We are here to examine the state of human rights, which is 
a very timely topic indeed, given the Obama administration's 
sea change in policy toward Cuba announced at the end of last 
year.
    We are here to ask whether, in undertaking this change in 
policy, the Obama administration used the considerable leverage 
that it wields to seek to better the condition of the Cuban 
people or whether, as I fear, an opportunity that was 
squandered in its haste to achieve a diplomatic breakthrough 
and even create a legacy for the President.
    Thus this hearing is not only about Castro regime 
accountability, but also the Obama administration's 
accountability, with Congress exercising its role of both 
oversight and as a bully pulpit for reminding the world that 
Cuba remains a Communist dictatorship which continues to arrest 
political dissidents--and I would underscore an estimated 178 
political dissidents in the last month alone--and one whose 
caudillo, Raul Castro, has declared would not change, even in 
response to the Obama administration's concessions.
    This Castro regime continues to harbor fugitives from 
justice, such as Joanne Chesimard, who was convicted in the 
1973 murder of a state trooper in my own home State of New 
Jersey. Officer Werner Foerster was gunned down gangland style 
after she escaped from prison. Indeed, just yesterday we had 
the Assistant Secretary of State for the Western Hemisphere, 
Roberta Jacobson, appear before the Committee on Foreign 
Affairs. I asked her what the response of the Cuban Government 
was when she raised the issue of the return of Joanne Chesimard 
to justice. She replied that the Cuban Government stated that 
it was, ``Not interested in discussing her return.'' That is 
absolutely unacceptable.
    I have in my hands a statement, which I ask to be submitted 
for the record, from Christopher Burgos, the president of the 
State Troopers' Fraternal Association of New Jersey, wherein he 
states on behalf of our Jersey state troopers that, ``We are 
shocked and very disappointed that returning a convicted killer 
of a state trooper was not already demanded and accomplished in 
the context of the steps announced by the White House regarding 
this despotic dictatorship.''
    I would also point out, as an aside, that both President 
Burgos and New Jersey State Police Superintendent Colonel Rick 
Fuentes both very much wanted to be here, and we will have 
another hearing to hear from them. And I look forward to that 
follow-up hearing.
    But, fortunately, we do have with us and it is a tremendous 
honor and a privilege to have with us today three 
extraordinarily brave and uniquely qualified witnesses to the 
brutality of the Cuban dictatorship, three human rights 
activists who at great personal cost to themselves and their 
families have and continue to stand up for human dignity.
    We will hear about the deplorable state of human rights in 
Cuba. Just read the State Department report on human rights as 
well as reporting that has been done by other NGOs and it 
couldn't be more clear that human rights are violated with 
impunity by the Castro brothers and their regime.
    I would note parenthetically that years ago, during the 
Reagan administration, I met with Armando Valladares, who spent 
almost two decades in the Cuban gulag system. And I will never 
forget, when I read his book--he actually led the delegation 
from the United States to the U.N. Commission on Human Rights. 
As a matter of fact, Ileana and her staff--we went time and 
time again to that Commission, asking them to look at the 
deplorable state of human rights in Cuba.
    When I was with Armando Valladares, I was in awe of his 
courage as well. He was able to get the U.N. to look at, pass a 
resolution condemning the deplorable situation in Cuba, and to 
deploy a team to go to the prisons and investigate these 
terrible abuses of human rights.
    There were promises made by Fidel Castro that there would 
be no retaliation whatsoever against those who spoke in prison 
and the family members who came forward and friends to bear 
witness to a terrible set of truths.
    Everybody was retaliated against, the people in the prisons 
as well as their families. And, regrettably, the U.N. was 
unable--perhaps unwilling, but certainly unable, to do anything 
to mitigate or to stop that retaliation.
    I have pushed for years to go to Cuba. I have been denied a 
visa for two decades or so. I want to go to the prisons. Of 
course, I will meet with Fidel if I am able to lead a 
delegation or even go on my own with my staff. We can't get 
that visa. Both Frank Wolf and I tried a number of times, and 
it got so bad that, at one point, Fidel Castro said that we 
were provocateurs. I want to go meet with the dissidents.
    Frank Wolf and I got into prisons in the Soviet Union, the 
infamous Perm Camp 35, where people like Natan Sharansky 
suffered and were tortured by that Communist dictatorship. When 
Xanana Gusmaao, who became the President of East Timor--I went 
and saw him when he was in Jakarta and went to prisons all over 
the world, but we can't get into Cuba. We even got into Beijing 
Prison Number 2, where 40 Tiananmen Square activists were being 
forced to do gulag labor, heads shaved, gone, they looked like 
concentration camp victims.
    And, yet, Mr. Wolf and I could not and I cannot get into 
those prisons. So I will be asking the government again--I have 
already asked, and I have asked our Government to help 
facilitate it--to go to the prisons.
    And even on the ICRC, yesterday the Red Cross--I asked 
Secretary Jacobson--I said, ``You know, much has been made that 
the ICRC might be able to get into the country.'' That is 
unacceptable. Get into the prisons. And, again, there needs--
there has to be absolutely no retaliation to those who speak 
out.
    I would point out that, after testifying here today in 
public--and I thank C-SPAN especially and the journalists for 
taking this story and making Americans aware of what is 
actually happening in Cuba. Right now, as we meet, they will be 
returning to Cuba--and this committee and I know the entire 
Congress will be watching--to ensure that their safety and 
well-being and health is not further jeopardized.
    But the courage to come forward to congressional hearings--
our friends over on the Senate side received compelling 
testimony as well--and to bear witness to an ugly truth of 
torture--I would ask everyone to go back and reread ``Against 
All Hope,'' Armando Valladares' famous book. He talked about 
tortures that I don't even want to mention in public, they are 
so despicable, of putting dissidents in vats of excrement so 
bad that it went into their ears and nose and they got 
infections.
    Armando Valladares told me that, when he and his wife--when 
they finally got to the United States and got asylum--that he 
couldn't even change his children's diapers because the smell 
of excrement brought back instantaneously, like, PTSD, 
remembrances of that kind of degrading cruelty imposed upon 
them.
    The Castro brothers and many in this regime ought to be at 
The Hague for crimes against humanity. That is how bad it is. 
These are among the worst abuses of human rights in the entire 
world.
    So, again, I want to welcome our brave and courageous 
witnesses.
    I want to thank Ileana Ros-Lehtinen and Mario Diaz-Balart. 
Ileana has been such a leader for so long in raising the truth 
of what is going on in this gulag island.
    I have much more to say, but I will put the rest of it into 
the record.
    But I do want to thank our witnesses again, and I look 
forward to hearing their testimony.
    [The prepared statement of Mr. Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                            ----------                              

    Mr. Smith. And I yield to my good friend and colleague, Ms. 
Bass, the gentlelady from California.
    Mr. Cicilline. Mr. Chairman, if----
    Mr. Smith. Sure.
    Mr. Cicilline. Mr. Chairman, I would ask unanimous consent 
to address the committee for about a minute or so.
    Mr. Chairman, I just want to take a brief moment before we 
turn to the very serious topic of human rights in Cuba to 
respond to a statement from this subcommittee's last hearing 
that had troubling interpretations.
    While discussing your position on marriage equality, you 
made comments and engaged in a line of questioning that some 
understood as suggesting that lesbian, gay, bisexual, and 
transgender people do not have basic human rights.
    After exchanging letters with you, I think it is important 
to note that, while we do have very different opinions on 
marriage equality--you strongly oppose it; I strongly support 
it--we both agree that, unequivocally, LGBT people have the 
same rights as all other people to live lives free from 
violence and persecution.
    In your letter and your public statement, you said that 
you--and I quote--``unequivocally oppose acts of violence 
against anyone and believe that human rights apply to all'' and 
that--and I quote again--``all individuals, including LGBT 
persons, should be treated with respect and compassion.''
    I want to thank you for the opportunity to clear up the 
confusion over your statement and to reaffirm our shared 
passion for protecting the human rights of all people. The 
policy of the United States is absolutely clear. LGBT rights 
are human rights, and LGBT people are entitled to live lives 
free from violence, intimidation, discrimination, and harm.
    And I thank you, Mr. Chairman. And I yield back.
    Mr. Smith. Okay. Thank you, Mr. Cicilline.
    I would just again say we do have a fundamental difference. 
I don't support homosexual marriage. I know you do, and I 
certainly respect your views.
    And I do want to point out that I am for universally 
recognized human rights for all. And there is no treaty that 
recognizes a right to marriage for homosexuals. But, again, I 
am glad we were able to work together.
    Okay. Why don't you go. Okay. Go ahead.
    Ms. Bass. Okay. Thank you, Mr. Chair.
    And I do appreciate the clarification of that because I 
know, with your long record on human rights, that you would 
never be okay with the egregious human rights violations that 
are taking place around the world in the LGBT community and 
that there is a fundamental difference between marriage, which 
many people have a difference around, but I know that there is 
no difference around LGBT rights and the violence and opposing 
the violence against LGBT people. So thank you for that.
    Today's hearing on human rights in Cuba is in the context 
of President Obama's recent announcement. I said yesterday in 
our Foreign Affairs Committee that sometimes, in talking about 
Cuba, it is difficult because two of my colleagues that are on 
the other side of the aisle right now in this hearing have 
family history and personal situations that make it very 
difficult if one does have a difference of opinion. I want to, 
one, respect and acknowledge what my colleagues have been 
through and what their families have been through and, with no 
disrespect or disregard for those histories, want to take a few 
minutes and propose a different viewpoint.
    You know, the President's policy of opening up relations 
with Cuba I actually think is a very good thing, especially for 
people who are concerned about human rights.
    During the five decades that we have not had relations with 
the Cuban Government and the Cuban people, the Cuban economy 
did experience multiple economic shocks which really produced 
hardships for the people, but none of it really produced the 
kind of popular uprisings or internal resistance that might 
have led to a change in government.
    I also think that the embargo prohibited diplomatic and 
economic engagement between the U.S. and Cuba. And I think that 
that many times is the ways in which societies become more open 
and accountable and democratic and trade and cultural exchange 
becomes mutually beneficial.
    I think the embargo has impeded U.S. relations throughout 
the Western Hemisphere, as many Latin American nations viewed 
the embargo itself as a human rights violation against the 
Cuban people.
    I have to say that, as a U.S. citizen, I definitely 
consider it my human right to be able to travel to any nation 
on the Earth, and I have resented the fact that it has been 
difficult--Americans can go to Cuba, and I have been to Cuba, 
but it is very, very difficult to go there.
    And I don't believe--and I might be wrong--but I don't 
believe that we have that restriction against any other nation 
in the world, including Iran, North Korea, and Saudi Arabia, 
all of which have extremely troubling human rights records.
    Such travel restrictions, as well as those of trade, also 
violate the freedom of U.S. citizens, and recent polling by 
CBS, ABC News and the Washington Post revealed that a majority 
of Americans are supportive of moving away from the policy of 
disengagement and toward reestablishing ties with Cuba.
    I also think that engagement would be good for the Cuban 
people, as people-to-people exchanges and the Cuban-American 
family travel would increase cultural engagement, assist in 
family reunification. And this opening of space will provide 
improved access to Cuba for nongovernmental organizations that 
are focused on governance and human rights as well as 
facilitating technical assistance to Cuban civil society groups 
concerned with improved standards of economic and personal 
freedoms.
    I do have to say--Mr. Chair, you mentioned about visiting 
prisons in Cuba. When I did go, I did visit Alan Gross and I 
visited him in prison. And I think that it was important that, 
during the time that Mr. Gross was incarcerated, that a number 
of Members of Congress went over and visited him and pushed for 
his release, and I think that that was a contributing factor.
    Again, I just feel that you really can't change people and 
governments whom you refuse to engage with. And so increased 
engagement, to me, seems like it would be a contributing factor 
to improving the human rights situation on the island of Cuba.
    And I look forward to the testimony from our witnesses 
today.
    Thank you.
    Mr. Smith. Thank you, Karen.
    I would like to now yield to the chairwoman emeritus of the 
Committee on Foreign Affairs, Congresswoman Ileana Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Thank you very much.
    And I also am glad that Mr. Gross is home. But if by 
visiting Mr. Gross you believe that you have been to a Cuban 
jail, maybe these dissidents here could tell you what a Cuban 
jail is really like. But we are thankful that he is home. Or we 
could ask someone like Mr. Basilio Guzman, who is in the 
audience today, he served 22 years in Castro's prison.
    And, Mr. Smith, I would like to request unanimous consent 
to submit into the record a letter from the International 
Committee of Former Cuban Political Prisoners based in Union 
City, New Jersey, documenting a list of the many Cubans who are 
still languishing in Castro's gulag.
    And thank you to Mr. Guzman for pointing that out.
    Mr. Smith. Without objection, so ordered.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Smith, I want to thank you so very much for convening 
this important hearing for your unyielding and passionate 
commitment to human rights, to freedom, not just for the 
oppressed people of Cuba, but for all people everywhere who 
suffer under oppressive regimes and who continue to seek the 
most basic and fundamental rights for many people that they 
take for granted. Everywhere there is an oppressed person, a 
political prisoner, there you will find Mr. Smith. So we thank 
you for that.
    I also want to welcome our wonderful witnesses: Berta 
Soler, Sara Fonseca, and Antunez, all champions of freedom on 
the island and the face of what the democratic future of Cuba 
will look like--look at those faces--that is the Cuba now. That 
is the free Cuba of tomorrow.
    These are brave pro-democracy activists who have seen 
firsthand the brutality of the regime by the constant arrests 
and beatings that they have had to endure, the isolation that 
they have had to endure while in jail, they did not have food 
prepared especially for them. They were starved. And after this 
hearing, they will be going back to Cuba, amazingly enough, as 
you pointed out, Mr. Smith, to continue the fight for freedom 
and democracy.
    Berta, as a matter of fact, she will be marching with her 
sisters, the Ladies in White--Las Damas de Blanco--this very 
Sunday. And, by the way, while all these negotiations are going 
on, there were 13 detentions of the Ladies in White just last 
Sunday. So if you think everything is rosy and bright and 
terrific and all wonderful, just ask these three dissidents 
what life is like for them. Very unlike what we hear from 
others.
    Our witnesses are just three of the countless faces of Cuba 
who represent the future, who the administration has shut out 
of the negotiations. And rarely are they invited to meet with 
visiting dignitaries. We are glad that they get the chance to 
go to Cuba. Rarely do they invite dissidents who disagree with 
this administration.
    These are the people who have to suffer the consequences of 
the administration's decisions. It is easy for the President to 
change this policy in his ivory tower. These are the faces who 
must now suffer under a Castro regime reenergized by President 
Obama's policies, by its injections of cash.
    The President's December 17th announcement serves to 
embolden the regime by implying that it can continue its 
repressive machinery with impunity. Raul Castro said, ``We will 
not change,'' and we look the other way. It undercuts and it 
demoralizes the brave freedom fighters in Cuba who rightfully 
believe that the U.S. has turned its back on them. But don't 
confuse the U.S. people with the administration, just like we 
don't confuse the Castro regime with the people of Cuba.
    And for what are these negotiations? So that more Americans 
can travel to Cuba and see what the regime wants them to see, 
all the while the regime fills its coffers and we ignore the 
truth. Because who owns the hotels? The Castro regime. Who runs 
the hotels? The Castro military. The truth about the Cuban 
regime is that it is a regime that severely punishes dissidents 
even to this day.
    El Dkano was sentenced to 1 year in prison just last week, 
a young rapper. A rapper is a threat to this regime. Did he 
committee a crime? No. His charge was dangerousness which could 
lead to a crime. It is the precogs of that movie. They predict 
that you are going to commit a crime; so, they arrest you 
before you commit it. This regime forbids reform and will do 
anything to maintain its grip on power.
    The censorship apparatus, one of the most comprehensive in 
the world. It forbids Cubans from listening to independent, 
private, or foreign broadcasts and even censors the signal of 
its own allies' televised propaganda.
    It is important, Mr. Chairman, that we understand exactly 
the kind of murderous regime we are dealing with in Cuba and 
that President Obama wants to normalize relations with.
    On November 4, 1999, the House Committee on International 
Relations convened a congressional hearing entitled, ``The 
Cuban Program: Torture of American Prisoners By Cuban Agents.'' 
At that hearing, you remember, Mr. Chairman, we heard testimony 
from American POWs--prisoners of war--who were tortured at a 
prison camp in North Vietnam known as the ``Zoo'' during the 
period of August 1967 to August 1968. According to reports, 19 
of those courageous servicemen were psychologically tortured 
and beaten by Cuban agents working under orders from Hanoi.
    And while the State Department led the negotiations last 
month in Havana, its very own Country Reports on Human Rights 
for 2013 states this: ``The following additional abuses 
continued: Harsh prison conditions, arbitrary arrests, 
selective prosecution, denial of free trial''--this is from the 
State Department, our State Department; they are still 
negotiating with Castro while this is going on--``authorities 
interfered with privacy, engaging in pervasive monitoring of 
private conversations. The government did not respect freedom 
of speech and press, severely restricted Internet access and 
maintained a monopoly on media outlets, circumscribed academic 
freedom, and maintained significant restrictions on the ability 
of religious groups to meet and worship''--our own State 
Department--``The government refused to recognize independent 
human rights groups or permit them to function legally.'' They 
can tell you about that. ``In addition, the government 
continued to prevent workers from forming independent unions.'' 
Where are these voices who are so much for independent unions 
here in the United States? ``But not for you. You are not good 
enough. I'm sorry. No union for you.''
    ``Human rights abuses were official acts committed at the 
direction of the government.'' Our own State Department says 
this. ``Impunity for the perpetrators remained widespread.'' 
Because I could continue.
    Mr. Chairman, we cannot be The Land of the Free across the 
world if this administration doesn't defend democracy right 
here in our own hemisphere. We cannot call for democratic 
reform and values throughout the world if we abandon them 90 
miles from our shores.
    Thank you, Mr. Chairman, for this time.
    Welcome to our panelists.
    Mr. Smith. Chairwoman Ros-Lehtinen, thank you for that 
extraordinarily powerful statement and for your consistent 
support, again, not only of the Cuban people, but people who 
are dealing with tyrannies all over the world.
    Ms. Ros-Lehtinen. I hope you get your visa.
    Mr. Smith. Thank you.
    Ms. Ros-Lehtinen. Don't hold your breath.
    Mr. Smith. I would like to now yield to my friend and 
colleague, Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. And I want to thank 
you and Ranking Member Bass for calling today's hearing on this 
very important issue.
    I particularly want to thank the witnesses who are here 
today and thank you in advance for sharing your insight and 
your experiences. And I know that some of you are bravely 
joining us today to share very personal stories of very 
difficult and painful experiences, and we are really indebted 
to you for your willingness to do that.
    As I discussed yesterday with the administration witnesses 
during our full committee hearing, I, like many, continue to 
have deep concerns about how the Cuban Government treats its 
citizens. But it is clear that the United States policy on Cuba 
over the past several decades has not worked either.
    And I am hopeful that President Obama's effort to engage in 
real, substantive negotiations toward a more honest cultural 
exchange, economic trade, and diplomatic ties with Cuba will 
ultimately benefit the United States and, more importantly, the 
Cuban people.
    I hope the Cuban Government will come to the negotiating 
table with a real desire to work with the United States toward 
a more free, open, and tolerant society for the Cuban people. 
And it is very important for us to pay close attention to the 
ongoing negotiations to make sure that any changes are 
implemented in a way that maintains our commitment to promoting 
basic values and human rights.
    So I thank the witnesses again for being here and look 
forward to your perspective as the relationship between the 
United States and Cuba begins to change.
    And, with that, I yield back, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Cicilline.
    Now I yield to my good friend and colleague who has been a 
very powerful voice, Mario Diaz-Balart, and thank him for 
joining us. He is a member of the Appropriations Committee, and 
he does us the honor of being here today.
    Mr. Diaz-Balart. Mr. Chairman, let me first thank you for 
the opportunity to sit in for a few minutes. I will not be able 
to stay for the entirety of the hearing because I do have other 
meetings to go to.
    But I could not let this moment pass without first thanking 
you, sir, for your just steadfast leadership and your 
consistent leadership, whether it has been fighting for freedom 
and supporting the opposition in Vietnam and Communist China 
and North Korea. Wherever there has been oppression, Mr. 
Chairman, you have always been consistent, just like Chairwoman 
Emeritus Ileana Ros-Lehtinen. I want to thank both of you.
    And I just want to make a couple of comments. And the 
ranking member, who was very kind in her introduction, 
mentioned about how some of us might have some family history. 
The issue of human rights has nothing to do with family 
history. Because I, for one, am opposed to oppression in 
Communist China, in North Korea, in Vietnam.
    And I don't know. I was a very young man when we had 
sanctions against South Africa, and I supported the sanctions 
in South Africa. I am assuming that the ranking member was also 
opposed to sanctions in South Africa because I am assuming, 
obviously, that she is also as consistent as the chairman is on 
these issues.
    I supported as a young man those sanctions against South 
Africa because doing business with the apartheid regime was not 
helping the folks who were struggling for freedom in South 
Africa. All it did was help prop up that regime in South 
Africa.
    So, Mr. Chairman, I couldn't let this time slide by without 
being here.
    Ms. Bass. May I ask the gentlemen to yield for a second?
    Mr. Diaz-Balart. Of course. With all pleasure.
    Ms. Bass. You know, I really was only trying to acknowledge 
the fact that I realize people had personal situations.
    Mr. Diaz-Balart. And I appreciate that.
    Ms. Bass. I wasn't trying to say that, you know, that is 
the only reason you are concerned about Cuba. It is just hard 
if you have a different opinion. I just wanted to respect what 
I knew you and Ileana's family had been through. That was all.
    Mr. Diaz-Balart. And I thank the ranking woman, as I said, 
for your kind statements. I took it as a kind statement. So I 
want to make sure of that. But I am just saying that the issue 
of human rights and the consistency on that is important.
    When we look at the folks that are here today--I mentioned 
South Africa--in front of us today are the Mandelas, are the 
Havels, are the future leaders of the free and democratic Cuba.
    When folks talk about Cuba, they sometimes confuse the 
regime with Cuba. No. This is Cuba in front of us today, they 
who have spent years in prison. Jorge Luis Garcia Perez, 
Antunez, 17 years in prison. By the way, ask him about the 
conditions of the prisons.
    Ask Iris Aguilera about how well the Cuban people are 
treated. Ask Sara Marta Fonseca. Just go to YouTube and look at 
her videos to find out how respected and how well the Cuban 
people who dare just speak out for freedom are treated.
    Ask Berta Soler about what happens when you just walk 
peacefully with a flower in your hand going to church and 
asking for freedom of their relatives. Ask her how the Cuban 
people are treated.
    So at a time when during the State of the Union our 
President spoke about Cuba--and, by the way, for the first time 
in my recollection did I see a President speak in the State of 
the Union about Cuba and not even mention, not even mention, 
human rights, not even mention democracy, not even mention, not 
even give lip service, to elections in Cuba.
    I am grateful to you, Mr. Chairman, for bringing these 
heros, the future leaders, them and others--the future leaders 
of Cuba, to this, the United States Congress, to testify.
    Because, again, at a time when our President has decided to 
ignore the repression, the arrests, heck, even the sending of 
arms to North Korea from the Castro regime, this House, as it 
always has, will continue to stand with you, with the future 
leaders of Cuba, with the people of Cuba, and not with the 
regime.
    I am grateful for the opportunity, Mr. Chairman, to be able 
to sit in here for a few minutes. Thank you, sir. I yield back.
    Mr. Smith. Mr. Diaz-Balart, thank you so very much for your 
very powerful statement, which has been consistent throughout 
the world.
    I would like to now recognize Mr. Emmer, the gentleman from 
Minnesota.
    Mr. Emmer. Well, thank you, Mr. Chair.
    And it is difficult to follow that from a new colleague. So 
I won't. I won't try to follow that. All I will do is say thank 
you for this hearing, Mr. Chairman, especially in light of the 
President's decision to somehow restart diplomacy with the 
regime currently in charge in Cuba.
    And there are still concerns for some of us about why the 
President would have used the process he used, side-stepping 
the State Department, having over a year of secret meetings 
that didn't involve normal process.
    But that part aside, it really is all about the human 
rights and the Cuban people, which is why it is so interesting 
to me. The discussion about normalization of the relationship 
is really what we are here about today.
    And I appreciate that you and the ranking member have 
decided that we are going to bring in some people to talk about 
some basic freedoms, the situation, exercise the oversight that 
is the jurisdiction of this committee. Because, thankfully, the 
President has acknowledged that he does not have the authority 
to dismantle, as he suggested, the embargo and start to 
normalize relationships with Cuba. That is up to Congress. And, 
hopefully, it starts here today.
    And we can talk about how people can have basic and 
fundamental rights to assemble with people that they want, to 
speak freely on their own behalf and, God forbid, even against 
their government and that people can actually practice their 
faith in public and be proud of it.
    I am looking forward at being part of the process, and I 
thank you again for holding this hearing.
    And for the witnesses, I look forward to your testimony 
today.
    And I yield back.
    Mr. Smith. Thank you very much, Mr. Emmer.
    I would like to yield to Mr. Pittenger.
    Mr. Pittenger. Thank you, Mr. Chairman.
    Mr. Smith. A leader on religious freedom especially in this 
Congress and on Chinese human rights.
    Mr. Pittenger. Well, thank you, Mr. Chairman. I deeply 
appreciate being here. And forgive me for being late. But I 
want to come to pay tremendous respect to those who have come 
to testify today.
    Each of us are still searching on the merits of why the 
President would make the unilateral decision that he made to 
provide a diplomatic relationship with Cuba against the wisdom 
of a dozen previous Presidents.
    What he has done is elevate a terrorist state. Along with 
Cuba is Syria, Sudan, Iran that are terrorist states. And now 
he has declared to the world that this state is acceptable to 
the United States. It is a very sad day.
    I have worked for the last 30 years with missionaries in 
Cuba. They tell me the plight of the religious inequities and 
the challenges that they face in people trying to live out 
their faith.
    So I am deeply concerned over the impact of what will 
happen, the elevation we have given to the Marxist doctrine 
that will be encouraged throughout the world. We have dealt 
with Cuba on an ongoing basis in the United Nations. They have 
sought to engage those who oppose the United States and our 
closest allies, including Israel.
    So I am here to pay respect to you and thank you for your 
commitment and to clearly say to you that we stand with you, 
fully engaged, on behalf of the wonderful people of Cuba.
    Thank you and God bless you.
    Mr. Smith. Thank you very much, Mr. Pittenger.
    It is now a very distinct honor and privilege to welcome 
our very distinguished witnesses. They are doing here today in 
Washington that which they would not be able to do in Cuba, 
especially before that rogue congress where there is really no 
real election, there are no free and fair elections.
    Let me begin first with Mr. Jorge Luis Garcia Perez, 
Antunez, who is a leader in the Cuban democratic movement. He 
was inspired early in life by reading the Universal Declaration 
of Human Rights, rejecting the Communist indoctrination that he 
was receiving in Cuba's schools.
    Antunez, as he is known to us all as, is a leader of a 
nonviolent movement to promote human rights and democracy. He 
was arrested in 1990 for peacefully protesting the Castro 
brothers' oppressive regime and spent the next 17 years, 17 
years, in jail as a political prisoner. He endured horrific 
torture, beatings, solitary confinement, and denial of needed 
medical care that almost cost him his life.
    Since his release in 2007, Antunez has continued to advance 
the cause of freedom and human rights in Cuba. He also knows 
firsthand the discrimination suffered by Afro-Cubans on a daily 
basis, an underfocused-upon, aggressive racism employed by the 
Castro regime.
    We will then hear from Ms. Berta Soler, who has been the 
leader of the Ladies in White movement following the death of 
the group's founder, Laura Pollan, in 2011. The Ladies in White 
is a movement of wives and female relatives of Cuban political 
prisoners, but now has evolved into a potent, powerful human 
rights group open to all Cuban women.
    Ms. Soler and four other members of the Ladies in White 
received the Sakharov Prize for Freedom of Thought by European 
Parliament in 2006, but the Castro brothers barred them from 
attending the award ceremony.
    She and her husband have remained in Cuba since his 
release, rejecting, rejecting, an offer of immigration from 
Spain in order to continue their struggle for human rights and 
democracy in Cuba.
    I would also note that the Ladies in White have been 
nominated by Ileana Ros-Lehtinen and I and others in a joint 
request to the Nobel Peace Prize committee, along with Dr. 
Biscet, another Afro-Cuban and medical doctor who has been 
tortured horrifically as well.
    He testified here, as you know, by way of a phone hookup 
and told us, Do not, do not, end the embargo. Get the 
conditions first. Get human rights and durable human rights at 
that before that embargo is lifted. And he said it even though 
there is great risk to himself in articulating that.
    He pointed out, as many others have pointed out, that the 
Europeans have been trading with Cuba for decades with no 
amelioration whatsoever and have been a lifeline, frankly, to a 
dictatorship which Russia first provided, then Venezuela, and, 
unfortunately, trade coming from Europe and Canada.
    Then we will hear from Ms. Sara Fonseca, who grew up in a 
household that opposed the Communist system based on their 
principles and their deep religious beliefs. Due to her 
family's faith, she was denied the right to complete her 
studies.
    In 2004, she became a member of the Pro-Human Rights Party 
affiliated with the Andrei Sakharov Foundation. In 2009, she 
joined the Rosa Parks Civil Rights Women's Movement, for which 
she became the delegate in the city of Havana. That same year, 
she also began participating with the Ladies in White as a lady 
of support.
    She and her family have experienced numerous state-
organized mob attacks, and her house has been vandalized and 
searched by government agents dressed in civilian clothes. As a 
result, she has sought refugee status in the United States.
    Then we will hear from Mr. Geoff Thale, who oversees the 
entire range of the Washington Office on Latin America's 
research and advocacy in Latin America policy and human rights 
issues. Along with a focus on specific countries and themes, 
Mr. Thale led the team that authored, ``Forging New Ties,'' 
WOLA's recommendations for new directions in U.S. policy toward 
Latin America.
    Mr. Thale has studied Cuba issues since the mid-1990s and 
traveled to Cuba more than a dozen times--wish I could get that 
visa--including organizing delegations of academics and Members 
of Congress. He coordinates WOLA's advocacy of this issue with 
a coalition of business, agricultural, and human rights groups 
who favor lifting the general travel ban on Cuba.
    I would like to now yield the floor to Antunez.

STATEMENT OF MR. JORGE LUIS GARCIIA PEEREZ, SECRETARY GENERAL, 
             CUBAN NATIONAL CIVIC RESISTANCE FRONT

    [The following statement and answers were delivered through 
an interpreter.]
    Mr. Garcia. Honorable Congressman Christopher Smith, good 
morning to all participating members.
    My name is Jorge Luis Garcia Perez, Antunez. I am a former 
political prisoner who spent 17 continuous years of political 
imprisonment for the sole supposed crime of calling out in a 
public square in my hometown of Placetas for the implementation 
of reforms such as those that were taking place back then in 
Communist Europe.
    Within the prisons, I remained steadfast in my condition as 
a political prisoner. And due to my constant struggle to 
denounce human rights violations from within prison walls, I 
was subjected to the most refined forms of torture and cruel 
punishment.
    For example, on the morning of 14 October 1994, high-
ranking officers from the political police, in spite of the 
fact that my hands were handcuffed behind my back, sicced dogs 
on me. Because I did not accept the regime's indoctrination 
program within prison walls, I was sent to the most 
inhospitable and rigorous prisons.
    Later, together with very courageous brothers from the 
prison, we founded the Pedro Luis Boitel Political Prisons 
Organization, which, in spite of repression, managed to unify 
hundreds of political prisoners in order to carry out civic 
resistance within the prison walls.
    After I was released in 2007, I have continued with the 
struggle inside Cuba where I think it is most important. I am 
currently active in the Orlando Zapata Tamayo National Civic 
Resistance Front. This is a national organization which carries 
out protests in the defense of human rights throughout Cuba.
    Today I am here in the name of my brothers and sisters of 
the resistance and most especially in the name of those who are 
imprisoned for their ideas, which there are dozens of. They 
have remained in prison in spite of the unconvincing process of 
release agreed upon by President Barack Obama and dictator Raul 
Castro.
    Among my imprisoned brothers, I want to mention Ciro Alexis 
Casanova Perez, Ernesto Borjes Perez, Armando Sosa Fortuny, 
among others. These men are part of a long list of heros whose 
only crime has been, first of all, to oppose the dictatorship 
and, second of all, to continue resisting within prison walls.
    A few days ago we learned that the President of this great 
and hospitable Nation had agreed with dictator Raul Castro to 
reestablish diplomatic relations as well as steps leading to 
the elimination of the embargo. And as if this were not enough, 
three confessed spies who participated in the murder of four 
U.S. citizens were exchanged for innocent contractor Alan 
Gross.
    These agreements, which are considered by an important part 
of the Cuban resistance as a betrayal of the hopes for freedom 
of the Cuban people, are unacceptable because the principles 
and the freedom of a country do not belong to any government, 
no matter how powerful or influential this government may be.
    There is underway an international effort expressed by the 
Obama-Castro accords to promote a supposed evolution within the 
Castro regime. This is a fraudulent change promoted by Castro 
regime in order to perpetuate itself in power.
    This illusion is manipulated by the dictatorship in order 
to perpetuate itself in power. The Castro dictatorship cannot 
be reformed. The Castro dictatorship is based on the negation 
of democratic society and everything this represents. The 
Castro dictatorship not only seeks to control the Cuban people, 
it also seeks to export this repression. It seeks to export 
this repression to other countries such as Venezuela.
    What does real change in Cuba mean? It means the 
restitution of all civil rights. It means the general amnesty 
for all political prisoners. It means the right to organize 
political parties and independent labor unions.
    Real change in Cuba means free, real elections, 
internationally supervised free elections. It means the 
separation from power of the Castro brothers. This is 
recognized in current U.S. law toward Cuba, and it should 
remain so because it constitutes the best possible support for 
the Cuban resistance.
    A majority of the Cuban resistance has signed onto the 
agreement for democracy in Cuba. This is a road map of 10 
elemental points toward democracy in Cuba. We ask recognition 
from the Congress of the United States for this document and 
for what it represents as a clear path toward democracy in 
Cuba. I ask the American people and its freely elected Congress 
that it maintains its firm support for the right of the Cuban 
people to be free.
    We may be close to true change in Cuba. The drop in the 
international price of oil, the instability of the Maduro 
regime in Venezuela which has been the main support of the 
Castro regime, the civic resistance which is widespread 
throughout the island, and how this resistance is increasingly 
coordinating itself, as is taking place with the forum for 
freedoms and rights, all indicate this.
    This is the moment to demand real concessions from the 
Castro regime. Only this can mean normal relations between the 
United States and Cuba. Cubans can be as successful on the 
island as they have been abroad. What we need is freedom. The 
Cuban resistance struggles for this freedom. We need your 
understanding and your support.
    Thank you.
    [The prepared statement of Mr. Garcia follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
       
                              ----------                              

    Mr. Smith. Antunez, thank you so very much for that very 
powerful testimony.
    We do have a series of votes on the House floor. We will 
have to take a short recess.
    So, Ms. Soler, if you wouldn't mind, we will just break and 
then come back for questions.
    And I do hope that members of the press and our audience 
will stay because we have very powerful testimony that awaits.
    So we stand in short recess.
    [Recess.]
    Mr. Smith. The subcommittee will resume its hearing.
    I want to apologize again to our distinguished witnesses 
for that delay. We did have a series of votes on the House 
floor. But we are looking forward to your testimony.
    We will begin with our second witness, Ms. Berta Soler.
    If you could proceed.

  STATEMENT OF MS. BERTA SOLER FERNAANDEZ, LEADER, LADIES IN 
                    WHITE (DAMAS DE BLANCO)

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Soler. Honorable Congressman Smith, distinguished 
members of the subcommittee, above all, I want to thank you for 
listening to me and, also, to thank all of the people and 
organizations who have made it possible for me to testify on 
the human rights situation in my country, Cuba.
    We are presently living through a particularly defining 
moment for the future of our country in the wake of the 
recently announced reestablishment of diplomatic relations 
between Cuba and the United States.
    I am appearing here as the leader of the Ladies in White, a 
group of women activists who support change toward democracy in 
our country through nonviolent means, inspired by the example 
of women such as Rosa Parks and Coretta King, among others, 
who, with courage and determination, blazed paths for full 
enjoyment of civil rights in this great Nation.
    Now, 50 years after the events in Selma, Alabama, and 
testifying before a subcommittee whose mandate includes global 
human rights, it is a great honor and historic opportunity for 
me to appear before you.
    I also speak on behalf of numerous leaders and activists 
from Cuban civil society who have entrusted me with speaking 
for them before you. It is a civil society that is particularly 
repressed by the intolerance of a government whose exercise of 
power consists of the systematic violation of the human rights 
of the Cuban people.
    Just before I left Cuba to be here, last January 28, the 
day we celebrate the birth of our founding father, Jose Marti, 
dozens of activists were arrested in Havana and other provinces 
for attempting to place offerings of flowers at statues of Jose 
Marti.
    In its totalitarian vision, the dictatorship seeks a 
monopoly on our national identity through use of force against 
all independent activists. The most respected international 
human rights organizations have documented violations of human 
rights in Cuba.
    On October 28, 2013, the Inter-American Commission on Human 
Rights issued an injunction on behalf of the members of Ladies 
in White to afford protection in the face of systemic 
repression by Cuban authorities.
    I submit the official precautionary measures issued by the 
Commission for these purposes, as well as a report by Cubalex, 
which initiated the case before the Commission. I request that 
these reports be made part of the record of this hearing as 
documentary evidence for our testimony, as proof of what we are 
exposing in our testimony today. These documents demonstrate 
that the subject of political prisoners continues to be one of 
the most sensitive issues in Cuba today, reaching far beyond 
occasional or periodic release of some of them.
    Resolving this matter requires the unconditional freeing of 
everyone who has been jailed for political reasons on the 
island and the elimination of all legal restrictions used to 
repress those who think differently from the regime.
    Cuba continues to be a country with a one-party government 
where fundamental freedoms that are an absolute right in North 
American society are crimes against what they regard as state 
security.
    Separation of powers does not exist in Cuba. Freedom of 
expression and association continue to be repressed, and the 
Constitution establishes the Communist Party as the driving 
force for society. The right to strike is regarded as a crime 
with workers on and off the island, subject to conditions of 
labor slavery which has been denounced by international 
organizations at the international level.
    While these conditions prevail, it is not possible to speak 
of a willingness to change on the part of the Castro regime. 
That same January 28, during his appearance before the third 
summit of the CELAC held in San Jose, Costa Rica, the dictator 
Raul Castro stated that Cuba will not give up 1 millimeter.
    For us, this signals the continuation of beatings, jailing, 
forced exiles, discrimination against our children at school, 
and all manner of patterns of intimidation and abuse that we 
suffer daily for wanting to see a pluralistic, democratic, and 
inclusive Cuba.
    Our aspirations are legitimate because they are underguided 
by the Universal Declaration of Human Rights, to which Cuba is 
a party, and the signed international pacts on civil and 
political rights which have not been ratified by the 
dictatorship.
    Our demands are quite concrete: Freedom for political 
prisoners, recognition of civil society, the elimination of all 
criminal dispositions that penalize freedom of expression and 
association, and the right of the Cuban people to choose their 
future through free, plural elections.
    We believe these demands are just and valid. Even more 
importantly, for us, they represent the most concrete exercise 
of politics, a step in the direction of democratic coexistence.
    Cuba will change when the laws that enable and protect the 
criminal behavior of the forces of repression and corrupt 
elements that sustain the regime change.
    In the name of those that have been executed, in the name 
of Cuban political prisoners, in the name of the pilots from 
the humanitarian organization Brothers to the Rescue murdered 
on the orders of Fidel Castro, in the name of the victims from 
the March 13 tugboat, in the name of the victims of Cuba's 
Communist regime, Cuba, yes, Castro, no.
    Thank you very much.
    [The prepared statement of Ms. Soler follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
   
                          ----------                              

    Mr. Smith. Ms. Soler, thank you very much for that very 
powerful testimony and for providing very specific benchmarks 
that the Cuban dictatorship needs to follow if Cuba is truly to 
be free. Thank you so very, very much.
    And I would like to now yield the floor to Ms. Fonseca for 
such time as you may consume.

STATEMENT OF MS. SARA MARTHA FONSECA QUEVEDO, MEMBER, LADIES IN 
                    WHITE (DAMAS DE BLANCO)

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Fonseca. Good morning.
    My name is Sara Marta Fonseca Quevedo. I was born in 1970 
into a Cuban family that, since 1959, had been branded as a 
dissident from the state. We were classified as 
counterrevolutionaries because we were opposed to the incipient 
Castro regime.
    For over half a century in Cuba, the Castro regime has 
violated and violates human rights. From the beginning, there 
have been crimes, murders, political prisoners, and people 
discriminated. All those who speak out against the regime are 
brutally repressed, imprisoned, or murdered. In spite of having 
been raised within communism, they were never able to convince 
us that that is the right way to live.
    As a human rights activist, I participated in organizing 
demonstrations in Havana, among them, a historic demonstration 
in 2011 in the old Capitol building in the center of Havana. On 
that day, four women, in spite of repression, opened a banner 
displaying a slogan calling for the release of all political 
prisoners.
    Hundreds of Cubans witnessed this protest. We inspired many 
Cubans who began to shout along with us for freedom. Others 
carried out their own protest. At all times we felt the support 
of the people. This protest was well worth the repression that 
we later suffered.
    I have been repeatedly arrested. They have beaten me 
senselessly in police stations to the point that they thought 
they had killed me. On one occasion, three female police 
officers dragged me by my hair from one cell to another. While 
they dragged me by my hair from one cell to the other, they 
kicked me in my back and in my head.
    Once I was in the cell they were taking me to and while I 
was still handcuffed behind my back, a male police officer 
kicked me with all his strength in my head. As a result of 
this, I suffered permanent damage to my right kidney and 
serious damage to my spinal column. To this day, as a result of 
this beating, I still suffer from dizzy spells.
    It is with this brutality and much worse that the Castro 
regime controls the Cuban people. They do this to constantly 
show the people what the cost of rebellion is.
    I want to emphasize that this type of repression continues 
today right now in Cuba. Cubans cannot elect their leaders. 
Children are indoctrinated in the schools, and those who do not 
follow the brainwashing cannot finish their studies. The people 
have been condemned to scarcity, hunger, and misery by the 
regime.
    A people without freedom of expression, with all the media 
controlled by the government, and hungry, are easy to 
manipulate. People think only about how to feed their family 
and although they do not like the way they are living, they can 
only think about survival.
    The Cuban people are tired of imposition and dictatorship. 
In order to escape, they venture out to the sea on makeshift 
rafts. It is for these reasons that we do not agree with the 
negotiations between the President of the United States Barack 
Obama and dictator Raul Castro.
    Why negotiate with a dictatorship without taking into 
account the people and their resistance? What about all the 
years of suffering, of beatings dealt out by the political 
police to the opposition and the people when they demanded 
freedom and democracy? What about the political prisoners, the 
murdered, the disappeared? What has Raul Castro given in 
exchange?
    Only when all political prisoners are released, only when 
all independent political parties and labor unions are 
legalized, only when free multiparty democratic elections are 
carried out, only when human rights are respected--only then 
should the embargo be lifted.
    I thank God for having been raised by a family which taught 
me truth, for saying what was on my mind. For stating what was 
on my mind, I was not able to finish my studies and neither 
were my sons. My family and I have been repressed, beaten. We 
have been thrown into cells. My house was destroyed by those 
using sticks, stones, who hurled all types of paints, tar, 
waste, excrement, chemical liquids. This attack against my 
house was carried out by paramilitary thugs hired by the 
political police.
    To lift the embargo means to legitimize dictatorship, to 
provide them with oxygen so that they stay in power while 
repressing, jailing, and murdering. The Cuban people will not 
benefit from lifting of the embargo. Only the regime will 
benefit. The Castro dictatorship owns every company that exists 
in Cuba. No Cuban can own their own business. The Castro family 
owns Cuba.
    We have faith in the future of Cuba because we have faith 
in the struggle of the Cuban resistance. There is only one 
resistance inside and outside Cuba. The Agreement for 
Democracy, a historic document signed by a majority of the 
Cuban resistance, lays out a clear road map toward democracy.
    We want freedom, justice, and democracy for Cuba now. God 
bless Cuba and the United States.
    Thank you.
    [The prepared statement of Ms. Fonseca follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much, Ms. Fonseca.
    And thank you for reminding us that these atrocities 
continue to this day, again underscoring the appalling lack of 
respect for fundamental human rights by the dictatorship.
    So thank you for that great testimony.
    Mr. Thale, please proceed.

  STATEMENT OF MR. GEOFF THALE, PROGRAM DIRECTOR, WASHINGTON 
                    OFFICE ON LATIN AMERICA

    Mr. Thale. Thank you. I am Geoff Thale, Program Director of 
WOLA, the Washington Office on Latin America.
    I want to thank Chairman Smith and Ranking Member Bass for 
convening this hearing on these human rights issues in Cuba.
    WOLA is a nongovernmental organization. For 40 years, we 
have done research and advocacy on human rights issues in the 
Americas. I have followed Latin American human rights issues 
since the mid-1980s, and I have directed WOLA's Cuba program 
since 1995.
    I travel there regularly. I try to meet with a wide range 
of Cubans, academics, Catholic and Protestant church leaders, 
government officials and government critics, government 
employees, and people in the small business sector.
    I have met with the late Oswaldo Paya. I regularly meet 
with and have met with activists like Elizardo Sanchez. I have 
had the pleasure of meeting here with visiting Cuban 
dissidents, including Miriam Leiva and Manuel Cuesta Morua, who 
spoke in a panel the other day with Ms. Soler in the Senate.
    So the question before us today really is: Has the United 
States squandered an opportunity to promote human rights in 
Cuba following the December 17 announcement?
    And I think our basic position is that, far from 
squandering an opportunity, our new posture toward Cuba will 
open new paths to improve the human rights situation and the 
living conditions of Cubans.
    It will provide opportunities to advance U.S. values and 
interests, opening new avenues of engagement through travel and 
trade for U.S. citizens, for churches, for academic and 
cultural institutions and businesses. Overall, it will enhance 
the prospects for freedom of expression and for reform on the 
island.
    I want to very briefly comment on three issues. One is the 
human rights situation, the general situation in the 
country;the second, what I see as the failures of a policy of 
isolation; and the third, kind of quickly, the opportunities 
for the ways in which engagement can advance the human rights 
situation and our interests.
    So on the first question, there is very little doubt--and 
my colleagues on this panel have talked about it--that there 
are serious human rights problems in Cuba. No one is 
unrealistic about that, and no one has a rosy view of the 
situation.
    In addition to the human rights situation, I think it is 
clear that the Cuban economy is overall fairly stagnant. Many 
people, especially young people, are yearning for real 
opportunity and don't feel they have it.
    And, in fact, the modest economic growth in Cuba in the 
last few years has led to increases in inequality. And one 
group in particular that has not benefited from some modest 
economic growth is Afro-Cuban families and youth.
    At the same time, I want to be clear on the other side. The 
picture in Cuba isn't uniformly grim. Life expectancy in Cuba 
is about what it is in the United States because of public 
health measures and medical care.
    Literacy levels in Cuba are very high, as high as in the 
United States overall, reflecting universal public education. 
Cuba just passed legislation this past summer to prevent 
discrimination based on sexual orientation.
    So very serious problems. But for all its very serious and 
very real problems, Cubans probably don't face the kind of 
issues citizens face in a country like Saudi Arabia or other 
repressive regimes.
    So, overall, the question isn't whether there is a real 
human rights issue in Cuba. Everyone agrees that there is. The 
question is: What can the United States do to improve that 
situation?
    For the last 55 years, we have pursued a policy of 
isolation. And I think it is fairly clear, if you hear the 
testimonies of the other panelists, that policy has failed to 
do anything to improve the human rights situation on the 
island.
    It has created hardships for Cuban citizens, for normal 
Cubans. But it has not forced the Cuban Government to change 
its policies or its direction. And, in fact, in many ways, it 
has offered the government a rationale to crack down on 
dissent.
    So the policy hasn't succeeded in bringing change in the 
Cuban Government. At the same time, it has relegated the United 
States, both U.S. Government and U.S. society, to the sidelines 
in Cuba itself.
    And so, if the policy of isolation has failed--and I think 
it pretty clearly has--the question is: What about a policy of 
engagement?
    Now, no one thinks a policy of engagement is a magic 
solution to the human rights problem in Cuba. But I think it is 
clear that, historically, periods of engagement with Cuba are 
periods in which we have seen political relaxation, 
particularly the release of prisoners.
    Under President Carter, during the time Pope John Paul II 
visited, during the 2012 talks with the church and the Spanish 
Government, all three of them saw significant prisoner 
releases. And just this past month, following the extensive 
talks between Cuba and the U.S. Government, 53 political 
prisoners were released, completing the release of everybody on 
Amnesty International's list of prisoners of conscience.
    So other international actors as well--the Government of 
Spain, the Government of Canada, the Government of Norway, a 
number of international groups, including European churches--
have seen specific benefits to efforts they have made for 
engagement with the Cuban Government rather than policies of 
isolation.
    Beyond the dialogue with Cuban officials, I think there are 
some really important things that greater engagement will do. 
It will help reformers inside the Cuban system. It will provide 
them more space and opportunity. It will benefit Cuban families 
and the Cubans who interact with people-to-people travelers. It 
is going to benefit religious interaction and expand contact 
between U.S. and Cuban churches. Telecommunications is going to 
offer new opportunities for Internet access and information on 
the island.
    So, overall, I think it is pretty clear that the policy of 
engagement is likely to expand family visits and remittances, 
assist a small, but growing, private sector, increase cultural 
and religious contacts, and help Cubans connect to the outside 
world. And if the United States is interested in helping 
ordinary Cubans in promoting democratic values, that is the 
path we ought to pursue.
    We shouldn't be naive in our expectations about Cuba's 
political leadership. This is the beginning, though, of a long-
term process to reduce tension between the governments and 
build bridges between the American and Cuban people. Over time, 
that is going to help empower Cuban citizens and open political 
space on the island.
    [The prepared statement of Mr. Thale follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Mr. Smith. Thank you very much for your testimony.
    We are joined by a member of the subcommittee who had a 
previous engagement at the opening part of this hearing, Mr. 
Clawson, the gentleman from Florida. So I yield time for his 
opening statement.
    Mr. Clawson. Thank you. Thank you for coming today.
    Mr. Thale, I want to start by thanking you for coming.
    I just want to say for the record I am in a bit of a 
disagreement here. I think that, if foreign direct investment 
was a good way to get these folks to come around, we would be 
in a better place right now.
    The Spaniards have had nice hotels on Varadero for a long 
time and it just hasn't had enough of an impact. And so I am 
worried that we are just casting a lifeline to murderous folks 
that were really about to go under.
    Senor Garcia, Senora Solera and Senora Fonseca, 
bienvenidos.
    [Speaking foreign language.]
    You have my full admiration, my full respect, [speaking 
foreign language] for what you are doing and the fight that you 
are waging, an example not only for your country, but for my 
countrymen as well.
    And anything that I can do to help you in this sacred 
fight, I am willing and enthusiastic to do so. I am so sad, 
sometimes brokenhearted, for your suffering and your 
injuries,and I can't imagine what it would be like.
    [Speaking foreign language.]
    And so I want to tell you wholeheartedly how much I support 
what you are doing.
    [Speaking foreign language.]
    Mr. Smith. Mr. Clawson, thank you so very, very much.
    If you would like to respond--Ms. Bass does have a plane to 
catch and asked if she could say a few words.
    Ms. Bass. Yes. Thank you, Mr. Chairman.
    And thank the witnesses for their testimony.
    I have a couple of questions. I sit on the board of the 
National Endowment for Democracy, and there is about 27 
organizations that are funded to help with activists in Cuba. 
Some of the organization are funded in Cuba and some of them 
are funded in Miami. I just wondered, one, if you thought that 
the funding was helpful.
    And then, also, the three of you are here today, and I just 
wondered how you were able to come--are you here for a long 
time?--or how you were able to get out of Cuba. Do you travel 
back and forth?
    Those are the questions I wanted to ask the three of you. 
And then I would like to direct a question to the other 
witness.
    Ms. Fonseca. Yes. All types of aid received by the 
opposition in Cuba is very important. I can tell you that, 
thanks to the aid we have received in Cuba, we have been able 
to save at least one life. And I will give you an example.
    When you have a cell phone in your hand, you have a weapon 
with which to defend yourself. Without the aid we get from 
abroad, we couldn't pay for that cell phone. On many occasions, 
we have been able to transmit from one corner of the island to 
the other about an activist who has disappeared or been 
arrested who otherwise there would be no news about. And thanks 
to that kind of communication, we are able to go out into the 
streets and to demand freedom for those who have been arrested.
    Ms. Bass. You know, I am relatively new on the board. So I 
was just learning about the funding. But given that we don't 
even have mail exchange--not much, I don't think--between our 
two countries, I was surprised that you were even able to get 
any aid from the United States.
    Ms. Fonseca. Yes. It is very clear that you can receive aid 
from one family member to another. That is why the Cuban exile 
community is so important.
    Ms. Bass. And then, also, about your travel, are you able 
to go back and forth between the--I mean, I know you are here 
today for this. I don't know if you have been here for a while. 
But you are able to go back and forth?
    Ms. Fonseca. In my case, I am a refugee in the United 
States.
    Ms. Bass. Okay. I see.
    But you guys are going back. Right? Didn't you mention that 
you were----
    Ms. Soler. At this moment in time, some activists are able 
to leave Cuba and come back thanks to the aid that we receive 
from some NGOs. This doesn't mean we are free, because there 
are many activists who are impeded from leaving Cuba by the 
regime.
    Ms. Bass. Sure. No. I mean, I was just surprised anybody 
was--you know, I understand, especially financially. But the 
fact that you were able--because they know what you are doing. 
Right?
    Ms. Soler. I want to give you an example. There are former 
political prisoners--there are at least 12 former political 
prisoners who are part of a larger group of 75 who were 
released from prison that are still under house arrest and they 
can't leave Cuba.
    And I give you a more recent example. One of the Ladies in 
White, Sonia Alfonso Alvarez, she was released on December 9 
and, when she went to request her passport, it was denied to 
her.
    I label the change that Raul Castro did in 2013 as a petty 
reform. As long as they can determine who leaves, who enters, 
there is no freedom to travel.
    Ms. Bass. Okay. And then, finally--because I promised the 
chair I would be quick--I wanted to ask, Mr. Thale, if you 
could talk about some of the--in the President's proposals, it 
is going to allow more economic exchange between our two 
countries.
    And I am wondering what impact you think that might have, 
especially on the freedom or lack thereof, of people to open up 
their own businesses. I mean, I understand there is some 
businesses, like people that have restaurants in their homes 
and stuff like that. I don't know to what extent there is 
extensive free enterprise.
    But do you think that that is ultimately going to assist 
the development of that?
    Mr. Thale. Thank you for the question, Congresswoman.
    So Cuba in 10 years ago, about 90 percent of the population 
of the Cuban workforce worked for state or state businesses. 
Today that is probably down to about 70 percent.
    The number of people who work for themselves in small 
businesses has gone up from about 150,000 4 years ago to about 
\1/2\ million now. So there has been a substantial increase.
    Some of those businesses are quite successful and have a 
dozen, 15 employees. The vast majority of them are small 
vendors, small restaurants, people selling and dealing out of 
their home.
    I think that the opening we have offered to the private 
sector--it is going to take a while for that to work through. 
But it is clear that it will strengthen the capacity of those 
businesses and the creation of a small private business sector. 
I think we will see change in that area over time.
    Ms. Bass. Thank you.
    I yield back my time.
    Mr. Smith. Thank you, Ms. Bass.
    First of all, let me introduce Basilio Guzman, who was a 
political prisoner for 22 years and was subjected to heinous 
torture, unbelievable acts for brutality.
    Thank you for joining us at today's hearing and for your 
courage.
    I would also like to introduce Iris Tamara Perez Aguilera, 
who is the wife of Antunez, if you would, and a leader in her 
own right. She founded the Rosa Parks Civil Rights Movement and 
has spoken out bravely along with her husband.
    Thank you for joining us at today's hearing as well.
    I would like to ask a few opening questions and then yield 
to my distinguished colleagues.
    First of all, if you could, Mr. Antunez, if you wouldn't 
mind, speaking to the issue of the mistreatment of Afro-Cubans.
    I have learned over the last several years--and I have been 
working on Cuban rights issues--I have been in Congress 35 
years. I have been working on Cuban human rights issues for 35 
years. But there has been, I think, a lack of attention given 
to the additional mistreatment endured by Afro-Cubans.
    All people who aspire to freedom and democracy, the full 
weight of tyranny comes down upon them. But there also seems to 
be a further differentiation and focus--negative bias--
prejudice against Afro-Cubans.
    If you could speak to that.
    Mr. Garcia. I appreciate your concern and your interest 
that all of you have shown today for the cause of Cuba,and I 
appreciate that concern even from those who are in agreement 
with Barack Obama's policy.
    Before I answer your question directly, I would like to 
reflect on something. And with all due respect for one of the 
panelists, I felt great pain a few moments ago.
    I felt ill at ease to listen from you that the Cuban 
situation is bad, but not that bad, the situation in Cuba is 
bad, but not that bad. I really don't understand, with all due 
respect, what you mean by a situation that is bad, but not that 
bad.
    And when you say this, I think about Cuban mothers who go 
to sleep crying because they have no food for their kids the 
next day. I think of those thousands of young women who have 
had to become prostitutes so they can feed their families. I 
think of the fact that Cubans can barely afford to live. I 
think about the gross inequality between the regime leaders and 
the people. I think about the moral, spiritual, and economic 
poverty of the people of Cuba.
    There may be some educational achievement in Cuba, but we 
are talking about a system of education which consists of 
indoctrination. When all three of us who are here were 
discriminated from pursuing higher education as youth because 
we had different political ideas, I think that invalidates, 
with all due respect, your argument.
    It is true Cuba is a medical power. But Cuba is not a 
medical power for Sara Marta Fonseca, for Berta Soler, or for 
Jorge Luis Garcia Perez.
    Cuba has many sophisticated hospitals and clinics which are 
first world-class. But those clinics, like the Fiera del Silla 
and Simex, are only for people who can pay with dollars. They 
are only for tourists or for the elite.
    I also heard you say that the human rights situation is not 
that grievous. How hard it must be for someone like Sidro 
Alexis Garcia to listen to--is it not that bad to be in prison 
merely for displaying a sign and calling for freedom?
    Is it not that bad to be in prison like Ernesto Borges? And 
I want to emphasize this case. Mr. Barack Obama released three 
confessed spies from the U.S. who were conspiring against the 
stability and the security of this country. However, this young 
man was sentenced to 30 years in prisonand he spent 18 years in 
prison because he passed on information to the U.S. about 26 
Cuban spies who were being sent to the U.S. to conspire against 
the U.S. It is not that Cuba's situation is not that bad. It is 
extremely bad.
    And if you will allow me, I want to comment on your 
reflection and I want to address directly what you asked.
    I want to ask: Why is it that you can't go into Cuba? Why 
is it that you can't travel to Cuba? Because if you are allowed 
to go into a Cuban prison, all you will see are black people, 
hundreds of black men. You will see men who would rather jump 
from a rooftop and commit suicide or you will see men being 
bitten by dogs. You will see the beatings. You will see the 
persecution. You will see these very far-flung sentences, these 
very high sentences. You will see dozens and dozens of 
political prisoners who weren't even mentioned in these 
negotiations.
    If you want to go to Cuba, simply tell them that you are 
not going to visit prisons and that you don't want to meet with 
dissidents.
    I think this addresses what you asked about discrimination 
in Cuba.
    Mr. Smith. Mr. Antunez, thank you very much.
    You know, the Washington Post has done several editorials 
very, very critical of President Obama's moving toward opening 
up diplomatic relations or further relations. And they made a 
very, very salient point that I would just like to underscore 
here, and that is that we are repeating mistakes that have been 
made in the past.
    When Bill Clinton went to Vietnam and opened up relations 
with Vietnam, which followed very quickly with the Bilateral 
Trade Agreement under President Bush, many of us said it was a 
mistake not to get human rights reforms, durable reforms, first 
and then move to the diplomatic recognition, followed by an 
economic relationship.
    The Post points out that it is the way Mr. Obama has gone 
about this that is a mistake, not reform first, but moving in 
to provide a lifeline, as one of their editorials pointed out--
a lifeline to a dictatorship at a time when Venezuela is less 
capable to provide funding.
    And we know that several years ago that funding from what 
was then the Soviet Union ceased to exist. A very opportune 
time to press the case for human rights and we blew it when it 
came to Vietnam.
    I have had passed in this Congress, three Congresses and 
counting, the Vietnam Human Rights Act. Harry Reid, the 
majority leader, now minority leader, would not put it up for a 
vote. But three times bipartisan legislation with clear 
benchmarks toward Vietnam because they are in a race to the 
bottom with China and North Korea.
    Cuba is already there. And, yet, having not learned a 
single lesson from those failed openings where they get 
stronger, the dictatorship becomes further empowered.
    I firmly disagree, Mr. Thale, with your comment about 
isolation. We are talking about financially enabling a 
lifeline, to quote the Washington Post.
    And one of their editorials was President Obama's betrayal 
of Cuban Democrats. Many of those--some have already been re-
arrested that were let out. And, of course, as I pointed out, 
there were just under 200 that we know of that have been 
arrested in the last several weeks alone.
    So that has been the game that Fidel Castro plays. He lets 
people in and out, but always has this sword of Damocles 
hanging over the entirety of this dictatorship.
    But I have a question, if I could, on an issue. And then I 
will yield to my good friend and colleague, Chairwoman Ileana 
Ros-Lehtinen.
    I have been working and I am a leader in the area of 
combatting human trafficking. I am the prime author of what is 
known as the Trafficking Victims Protection Act of 2000. It is 
our landmark law to combat modern-day slavery.
    Well, the State Department has a Trafficking in Persons 
office created by my law. And they put out an annual listing of 
countries using what we contained in the law called minimum 
standards. The worst designation is Tier 3.
    Cuba, again, is a Tier 3 country, an egregious violator of 
trafficking with full complicity of the Castro brothers and the 
rest of that government, making money hand over fist by 
forcible prostitution and by child prostitution.
    In 2004, Frank Calzon had documentation and was working on 
the Human Rights Commission in Geneva. He had documentation of 
the complicity of this dictatorship with child prostitution and 
child exploitation. And he was knocked out cold, hit in the 
face, by Cuban so-called diplomats, thugs.
    Freedom House came to his defense and made a very strong 
statement against it because he was bearing witness to that 
ugly truth of child prostitution. And, again, the State 
Department chronicles this. Cuban citizens have been subject to 
forced prostitution outside of Cuba as well. And then child 
prostitution and child sex tourism continues.
    In the hotels that were mentioned by Mr. Clawson and other 
places, renting children, that is the reality of what this 
barbaric regime is all about. They make money by child sex 
tourism. Again, it is not an open society. I would love for 
investigators to be able to go there and, of course, look to 
bring charges against those, including higher-ups in the 
government. Tier 3 country.
    I would like to ask any of our witnesses if they would like 
to speak to the despicable record of Cuba when it comes to the 
modern-day slave trade.
    Ms. Soler. It is very important for you to know that the 
Cuban Government promotes child prostitution in Cuba. The Cuban 
Government knows that there are many youths who don't go to 
school, but who are on the streets looking for ways to make 
money to feed their families.
    It is shameful to say, but I must say just last week there 
was a group of young women saying that they were organizing 
themselves and preserving themselves for when American tourism 
arrives so they can sell themselves to American tourists.
    If we call the prostitution of hundreds of Cuban youths 
empowerment, if we call Cubans who are going to try and steal 
and take from their places of work in order to feed their 
families--if we call this empowerment, if we call empowerment 
that women, like the Ladies in White, who go out in the streets 
to demand freedom and respect for human rights and are beaten--
if we call this empowerment, if we call empowerment the Castro 
regime filling schools with teachers who are poorly trained, 
the children of human rights activists are failing their tests, 
and they are damaged or harmed in their studies because their 
parents are involved in human rights activity, this is not what 
we want for Cuba.
    The Cuban Government is trying to build a Chinese model in 
Cuba. The Cuban regime wants oxygen and needs air. The Cuban 
Government wants a capitalist economic system and a Communist 
political system. We can't tolerate this after over half a 
century. Human rights first. Economy second.
    The Cuban people are suffering, hungry, not because of the 
American Government. The Cuban people are hungry because the 
Communist system doesn't work.
    We don't want a succession in Cuba. We don't want a 
continuation of the regime. We don't want a dynasty in power. 
We want free elections. The resources that are meant for the 
Cuban people, Raul Castro will take to strengthen the 
repressive apparatus. Thank you.
    Mr. Smith. I yield to the chairwoman, Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Smith. Thank you 
for calling this important hearing. Thank you to our witnesses, 
who are victims of the Castro regime, for being here today.
    Antunez, Berta, Sara, Iris, I am humbled to be in your 
presence. Some of you live in Cuba. Others are here now but 
have family in Cuba so I know that you are very brave for being 
here today.
    This is sort of an insurance policy that you have offered 
them, Mr. Smith, because by being here today, perhaps they will 
have some degree of protection that those other figures, as 
brave as you are, won't have. So I know you worry about them. 
Thank you for holding up their photos.
    Thank you for describing the current dismal human rights 
situation in my native homeland of Cuba. And I wanted to just 
give this statement and then ask you some questions.
    How has the regime's treatment of its critics changed since 
December 17th? Do you think this announcement will force 
changes? I will ask you to respond in a minute.
    How does the regime manipulate the press here in the United 
States and elsewhere and visitors and tourists on the island 
that may come back here with a distorted picture of what is 
going on? This morning, I did a radio interview, and the 
reporter says, ``I know Cuba; I was there for a week.''
    Antunez and Berta, you will hear--you have heard from some 
today that Castro's Cuba is a picture of equality, that the 
regime supports everyone's rights, including the rights of 
Afro-Cubans. Thank you for pointing out the kind of apartheid 
government that exists there, especially the medical apartheid 
and the prison apartheid. Thank you for pointing out the 
mistreatment of the Afro-Cubans.
    And, Mr. Thale, you testified that the picture in Cuba is 
not a uniformly grim one. The fact that you essentially say, 
``Hey, look, it could be worse,'' I suppose so. It can always 
be worse. And it is particularly disgusting and it is an 
affront to the panelists who sit beside you and the countless 
number of people who have been jailed for expressing their God-
given and fundamental human rights, to thousands who have died 
trying desperately to flee Cuba.
    This is such a workers' paradise where the situation is not 
that bad that I have people--I see people in my district that 
wash ashore trying to flee Castro's Cuba. Even now, as all of 
these negotiations have taken place, there is a 40-percent 
increase in the number of Cubans fleeing this situation that is 
``not that bad.'' People who live in constant fear because the 
regime is watching them closely or the millions more who have 
managed to flee over the years.
    You are repeating the Castro propaganda about good public 
health care. These are the constituents that I represent now. 
They fled Cuba. You should come to Miami and meet with my 
constituents and have them tell you about this great medical 
care. I have seen it in the Michael Moore documentary, 
``Sicko.'' Where does that exist? Where is that medical care 
for these folks?
    I know that if you are a tourist, you will certainly be 
treated well. It is good propaganda. Public education, 
advancement of LGBT rights. The real truth is that the good 
medical care is just a show for the Castro regime reserved only 
for the regime officials and the tourists. I know because I 
represent that community. My district is overwhelmingly Cuban-
Americans. I don't know how I got elected. It is just a fluke, 
I guess. But these are the folks who vote for me and will vote 
for Mario and vote for Carlos Curbelo, vote for Marco Rubio, 
vote for Bob Menendez and Albio Sires.
    But we know that the system of medical in Cuba, for all, 
most vast majority of Cubans, they have no access to this 
system. Please interview the people as they get off the planes 
from Cuba. Dr. Oscar Elias Biscet, thrown in jail for 
disclosing the truth about abortions being committed and the 
poor hospital conditions. And Mr. Smith has brought that out 
time and time again.
    Life expectancy rates and other healthcare statistics in 
Cuba, where do we get those from? You are doing a survey in 
Cuba? They are manipulated by the regime. It is unbelievable 
that we swallow this.
    And you have fallen into the trap, Mr. Thale, that Castro 
set for you, willing to swallow the regime propaganda, spread 
it to them to give it legitimacy. They are utter falsehoods and 
repeated over and over again to the detriment of the truth, of 
the public, and especially the Cuban people.
    It is such a great system, the public education system. As 
these witnesses have pointed out, it is a public indoctrination 
program. Have you seen the textbooks? Meant to stymie free 
thinking and free will.
    Progress on sexual discrimination? Please, I have met with 
prominent Cuban LGBT advocates, Wendy Iriepa Padilla and 
Ignacio Estrada Cepero, and they have vigorously dismissed the 
claims of progress on LGBT. They have condemned the continual 
denial of human rights for everyone. The Castro regime will 
project LGBT rights if you agree with the Castro regime. They 
will protect anyone who agrees with the Castro regime. But be 
an LGBT individual in Cuba and speak out against the regime, 
see how far that gets you.
    So my first question to you, Mr. Thale, is: Can you 
honestly look at your copanelists in the eye and tell them that 
the picture in Cuba isn't a particularly grim one--it is not 
that bad--and that the torture, the beatings, the imprisonment, 
the harassment that they have had to endure isn't particularly 
grim?
    Your 17 years in prison, not particularly grim, not that 
bad. The beatings of Ladies in White, including 13 who were 
detained on Sunday, but the press doesn't cover that anymore 
because they want to have their bureau in Havana. And you talk 
about how the engagement has led to the release of political 
prisoners. You point to this false list of 53 as part of the 
December 17th announcement. But what happens the next day when 
we are not looking, when people aren't looking for Cuba, when 
the press has done their standups and they have got their 
bureau? They don't want to lose that bureau. Oh, no. How many 
more of these dissidents are rearrested? How many more are 
detained?
    How many more--how many of the 53 have been released prior 
to the agreement, or are you under the fallacy that that 53 
list is authentic? Haven't some of them been rearrested? And 
what about those other ones who never made it to the list? Why 
53? There were 9,000 imprisoned last year, according to 
reports. And how about those individuals that Mr. Antunez held 
up? What has happened to them?
    The modus operandi of the regime is to do this bait and 
switch, to release some prisoners out of expediency, to 
promulgate its propaganda and then, when the spotlight is off, 
rearrest those people or find new ones to throw in jail. But 
now they don't even have to wait until the press attention is 
out.
    Like I said, just on Monday, a young rapper was put in jail 
for a year for dangerousness which could lead to a crime. How 
can you justify that? How can you say, oh, we have liberated 
these 53, and it is not that bad?
    I want to ask you--to our panelists here: Mr. Antunez, has 
it not been that bad for you? When you were in jail, not that 
bad? Not that grim?
    And Berta and Sara.
    Mr. Garcia. I think that the situation with the violation 
of human rights in Cuba is much worse than we can describe. It 
has been written about in some documentaries that have been 
made. But none of them capture the full reality. They can't 
capture the brutal reality of imprisonment in Cuba.
    Maybe those who don't have a real good idea or don't have 
all the information about what a Cuban prison is like could 
come to think that a prisoner in Cuba is merely deprived of 
their freedom. They could ignore that Cuban political prisoners 
are injected with water and told that they are being injected 
with some kind of sedative. There have been cells throughout 
Cuban prisons where murders and beatings have taken place. 
There have been clinically induced suicides which have taken 
place in Cuban prisons.
    I will never forget Samuel Simpson Gonzalez when he was 
manipulated by the prison authorities to jump off a third-story 
rooftop. I will never forget the use of Shakira, a device for 
torture, in Cuba. I don't want to consume too much of your time 
telling you about all the horrors of the prisons because I have 
so many examples of torture that we wouldn't have enough time 
for me to go over all of them.
    If you ask me how I could describe political imprisonment 
in Cuba, I would ask you to ask Dante and find it in his great 
work. You can't talk about process of engagement, of dialogue, 
of understanding if you ignore something as important, as 
crucial, as essential as political prisoners.
    We often talk about the embargo, and we hear it mentioned 
in different forums. Eloquent voices speak out against the 
embargo. However, one of the Members of Congress who is not 
present right now, blames the embargo for not being able to go 
to Cuba. But it should be mentioned--perhaps they should 
mention that the only real embargo, the only real blockade that 
the Cubans face is the cruel criminal Castro dictatorship that 
does not limit itself and on a weekly basis beats women on the 
streets, a regime who murdered in the hospital a courageous 
woman like Ladies in White founder Laura Pollan or who murdered 
Orlando Zapata Tamayo by not letting him drink water for 18 
days.
    Yeah, there will be changes. There will be improvements, 
but not for the people. It will be for that regime that has 
imprisoned so many Cubans, that has repressed Cubans, and that 
is frankly taking the lead in these negotiations.
    Those of us who are sitting here are not extremists. We are 
not backward-looking people. We are not against policies of 
engagement and understanding. And we think that the best way to 
solve a conflict is by approaching. But what we can't accept is 
that you confuse Cuba with the regime that oppresses Cuba. What 
we will not accept and we have no reason to accept is that the 
Cuban opposition be ignored in these negotiations.
    The Castro regime has found in Barack Obama's engagement 
policy part of the incentives it needs in order to continue 
repressing. In order to maintain itself in power, as well as to 
legitimatize itself internationally, these accords have been 
very strong. The Cuban resistance does not recognize these 
accords, and we do not count for moral authority or executive 
authority, no matter how powerful they may be.
    We are appreciative of international solidarity, and we 
accept it. We respect those who think that President Obama's 
policies will benefit Cuba. But all that we ask, please, is 
that you recognize us and that you take us into account.
    Ms. Ros-Lehtinen. Berta.
    Ms. Soler. It is very important for you to know that the 
Cuban Government uses state terrorism against defenseless 
women. The Cuban Government is not a sovereign government. The 
Cuban Government has not been elected. Therefore, we Cubans are 
the sovereignty of Cuba. We have the right to express our 
opinion.
    It is very important that you know we have no problem with 
the Government of the United States because they have always 
tried to support the people of Cuba. What we are against is the 
way in which these negotiations are being conducted because we 
are the sovereignty of the people of Cuba.
    The secrecy surrounding the list of political prisoners who 
were going to be released was another deceit of the Cuban 
Government. Fourteen prisoners had already been released. But 
these 14 were not free men like those three spies that 
President Obama unconditionally handed over to the Castro 
regime. These political prisoners that were released by Castro 
regime have been released on parole.
    You must take us into account. We can help in how the U.S. 
Government deals with the Cuban Government. You can't do 
business with criminals, and if you do, you must have 
conditions.
    You can see how Raul Castro himself is already setting 
conditions. But which are the conditions that we are demanding 
from the Cuban Government? How can it be possible that so much 
violence is exerted against women simply because they are 
trying to practice their religious freedom?
    How can it be possible that you are peacefully walking on a 
sidewalk in your country and the regime hurls pro-government 
thugs, paramilitary thugs against you? How can it be possible 
that the police take us to faraway parts of the city and that 
they fracture our wrists with their pistol butts?
    It is a suffering people. It is a people that needs 
freedom. Freedom depends on us Cubans, but we need the material 
and spiritual support of other governments.
    I am going to go further back. In 1980, 100,000 Cubans left 
Cuba--teachers, engineers, physicians. Castro called them scum 
and said they were leaving due to economic reasons.
    Ms. Ros-Lehtinen. Now, Berta, I am going to interrupt you a 
second because I know that you have got a flight to catch. I 
just want to say something before you leave.
    This is the news from today: ``Dissidents Arrested for 
Protest Near Cuban National Assembly this Morning.'' So much 
has changed. A group of 12 dissidents were arrested as they 
tried to stage a protest near the Havana headquarters of the 
Cuban regime's National Assembly. The dissidents, part of the 
Orlando Zapata Tamayo Civil Resistance Front took out a sign 
demanding the elimination of Castro's draconian laws--that ever 
wonderful social dangerousness--and the ratification of the 
U.N. human rights covenants. Their whereabouts remain unknown.
    In stark contrast, this release says, Cuban democracy 
activists Jorge Luis Garcia Perez, Antunez, and Sara Martha 
Fonseca, both leaders of this group, are freely and openly 
testifying before the U.S. House of Representatives in 
Washington, DC, this morning. What a contrast.
    Berta, you have got to hop on a plane. And I know that you 
will be marching with the Ladies in White on Sunday. We will 
pray for you. We will pray for all of the people of Cuba. You 
make us proud. You make freedom and liberty shine.
    [Speaking foreign language.]
    Ms. Soler. [Speaking foreign language.]
    Ms. Ros-Lehtinen. Thank you so much. Thank you. Now move 
your butt over to the airport. Because that is free commerce in 
action, they won't hold that plane. Only in Castro's Cuba will 
they hold it.
    [Speaking foreign language.]
    Sara, and then I don't know if Mr. Thale could speak as 
well.
    [Speaking foreign language.]
    Ms. Fonseca. If you allow me, I would like to speak about 
the private sector in Cuba. There is no private sector in 
Cuba--where there is no freedom to negotiate. The so-called 
cuentapropistas or self-entrepreneurs, who are a very tiny 
minority, are constantly blackmailed and manipulated by the 
regime.
    They must respond to the interest of the regime in order to 
keep their businesses running. They can't have their own 
unions. They can't defend their rights. That is why I insist, 
no type of commerce with Cuba benefits the people. Whatever 
money enters Cuba remains in the hands of the regime.
    I also want to say I feel a deep sadness every time I think 
of political prisoners. It is very hard that in the 21st 
century, there are still people in my country who are 
imprisoned for their ideas, that there are so many marginalized 
people who can't even finish their studies because of their 
ideas. But it is not only this. Many youth who are not directly 
involved in opposition activity also suffer from persecution 
and also suffer from discrimination because they are the 
children of opposition activists. It is a crime that youth 
cannot pursue their studies and that they desperately seek in 
prostitution a means of which to maintain their families.
    We condemn the Castro regime. We demand that there be no 
impunity for the regime. We want a free, just, and democratic 
country.
    Ms. Ros-Lehtinen. Thank you so much.
    And, Mr. Chairman, I regret that I have a plane to catch as 
well. I did not give Mr. Thale a chance to respond. I don't 
know if you will be able to, and I will hear it on C-SPAN 
radio.
    Mr. Smith. Thank you. Thank you so very much.
    Ms. Ros-Lehtinen. Thank you so much. Thank you. I am on 
Berta's flight, I just remembered. It is not going to wait for 
me either. Thank you, sir.
    Mr. Smith. Thank you.
    Mr. Thale.
    Mr. Thale. Only briefly. Thank you. Thank you for the 
series of questions and comments.
    Without wanting to enter into a whole debate about exactly 
how you characterize the human rights situation in Cuba, which 
I don't think is particularly profitable, I think it is clear--
no one denies that there are serious human rights problems on 
the island. The question is how to address them and what the 
United States Government can do. And I think that the policy of 
engagement that was announced on the 17th--the policy has been 
supported by others in the Cuban dissident community, some of 
who testified before the Senate the other day, that is 
supported by the Catholic Church in Cuba, that is supported by 
the U.S. Catholic Conference, that was endorsed by the Pope, 
that a number of Republicans as well as Democrats in this 
Congress have endorsed, that Freedom House has endorsed--I 
think the message is there is a very strong view that the best 
way to address the human rights situation in Cuba is 
engagement.
    Mr. Smith. Thank you, Mr. Thale.
    Let me just--and I will give--if any of you want to make 
any final comments as we conclude the hearing.
    I will, again, respectfully disagree, Mr. Thale. And I 
thank you for your candor.
    We have tried that before, and it seems to me it is not 
about isolation. It is about meaningful engagement where steps 
that we take are predicated on just observing universally 
recognized human rights. We are only asking that the Universal 
Declaration of Human Rights, the treaties that have been 
enacted, for want of a better word, with concurrence and full 
all-in by the countries of the world--be followed and certainly 
the convention against torture, which has been violated with 
impunity by Castro and is one of the most egregious violations. 
Torturing people is one of the most heinous acts one human 
being can commit against another.
    I would just very quickly, Mr. Thale, have you ever asked 
to meet with a political prisoner in prison?
    Mr. Thale. [Shakes head no.]
    Mr. Smith. No? I hope you would. I have made it my 
business, in 35 years as a Member of Congress, to meet with 
dissidents everywhere and anywhere I go where there is a 
repressive regime. But I always seek to go to the prisons to 
try to show some solidarity, some empathy with those who are 
suffering the daily acts of torture and brutal mistreatment 
that Mr. Antunez articulated.
    You know, the book that got me into fighting for religious 
freedom, frankly, in 1981 was ``Tortured for Christ,'' by 
Richard Wurmbrand, who talked about the Securitate and, just 
like in the prisons of Cuba, where torture is commonplace. And 
then when I read Armando Valladares' book, as I mentioned 
earlier, he talked about these tortures that just never ended. 
He even talked about Ho Chi Minh poles that would be jabbed as 
people tried--and there was no sleep. Talk about sleep 
deprivation. Just no sleep. But you never know when you are 
going to get another shot in the face, the nose, the solar 
plexus, the groin area, as the guards shifted from one guard 
shift to another. They would use these Ho Chi Minh poles. And 
then the--some of the things that Mr. Antunez talked about 
always designed by sadists to get the worst--extract the worst 
possible pain on women and men and then, of course, the sexual 
abuses that are visited upon people as well.
    Dr. Biscet talked about how they punched his teeth. You 
know, major, major problems. Just beatings, beatings, and more 
beatings. I honestly believe Castro and those who have 
committed these atrocities ought to be held to account by the 
world for crimes against humanity rather than invited in as 
partners.
    Yes, you have got to deal with dictators as a country. Ours 
does, as do many others. But to have human rights as, you know, 
an issue, maybe an issue, not THE issue, is a serious mistake.
    And again, the embargo, I would just say for the record--
and perhaps some of our witnesses want to speak to this--there 
has been robust trade with the European Union, Canada, and 
other countries of the world with Cuba for decades. And there 
has been no diminution whatsoever in torture, child sex 
trafficking. If anything, the trade has facilitated, 
particularly with convicted pedophiles and others who travel 
the world to abuse little children, to rent a boy or a girl 
when they go to Cuba. I just had passed on the floor of the 
House of Representatives for the third time the International 
Megan's Law. So that convicted pedophiles--that we will notice 
countries of destination when they are leaving to go on sex 
tourism trips. How horrific is it that the Government of Cuba 
actually benefits financially from that. And if that is not 
accurate, then, allow a full-scale investigation because we 
have so many stories and so much information. And, again, I 
have to say this--and I will put this, major parts of this into 
the record--the Trafficking Victims Protection Act has 
established--will be called the TIP Report. It comes out every 
year. And Cuba, again, has been designated an egregious 
violator, a Tier 3 country when it comes to modern day slavery.
    So, you know, the idea of trade and somehow there will be a 
matriculation with more trade with a dictatorship toward 
democracy didn't work in Vietnam. They have gotten worse. Has 
not worked in China. Xi Jinping is in a love affair with Mao 
Zedong. He longs for the day of the Mao, and he is taking that 
country further down the road of torture as more trade occurs 
with the People's Republic of China.
    And even many of our businesses are learning that if you 
don't respect human rights, intellectual property rights and 
the like are another casualty of a dictatorship.
    And when people talk about the Internet being open, I am 
the one who held the hearings right in this room several times, 
but one truly historic one with Google, Yahoo, Microsoft, and 
Cisco--and, yes, it was in China. Swore them all in, and they 
were part of the censorship.
    And we know the Castro regime has great capabilities, as 
does Lukashenka in Belarus, as do other dictators to ensure 
that that Internet and--whether it be emails or anything else 
will be very closely surveilled so that more of the best and 
the bravest and the brightest of Cuba are found and apprehended 
and thrown into prisons. So there is no open Internet there. 
There isn't in any dictatorship anywhere in the world. China 
has literally written the book on how a dictatorship can 
control the Internet with the great firewall of China. And we 
have a situation that will replicate itself big time there.
    Finally, I would just say this testimony from these 
unbelievably brave women and men who have suffered at the hand 
of Castro helps tear off the veil of secrecy, an open secret, 
if you will; it has been out there. But, thankfully, through C-
SPAN and the media that is here and the Congressmen and women 
who will see this record, you are bearing truth and bearing 
witness to a very ugly reality that is pervasive.
    Again, I do believe the facade of legitimacy that Castro 
craves and I believe just got a helping hand--that is just not 
my view. The Washington Post and so many others have already 
opined on that in their editorials. This was not the time to 
take that view. There should have been an effort to say, human 
rights first, as you said, Mr. Antunez, then economic issues 
and other kinds of engagements.
    I have seen one statement after another come out of Havana 
from high government officials that nothing is going to change. 
And, if anything, with the rearrests of at least five, maybe 
more, of the 53 and others who have been rounded up, which is 
the game that this regime plays in Cuba, just shows that they 
are intent on doubling down and making it even worse for the 
dissidents.
    So thank you for, again, bearing witness to the truth and 
for exposing these crimes against humanity. And if you would 
like to make any final comment, Mr. Thale, starting with you 
and then finishing with Mr. Antunez.
    Mr. Thale. Briefly. Only to say, Congressman Smith, 
obviously, I have the deepest respect for your commitment to 
human rights, particularly your focus on child trafficking and 
human trafficking issues.
    Obviously, we differ about what is the best way to move 
forward in Cuba. And I am happy to continue that discussion.
    The only very specific thing I would say on the human 
trafficking issue is that if you look at the U.N. human 
trafficking reports on Cuba, they are different than our Tier 3 
listing. They are different because Cuba and the United 
States--Cuba has refused a dialogue with the United States 
about this issue. I believe that that is changing and there 
have been some discussions with the TIP unit, so----
    Mr. Smith. I am sorry.
    Can I say, you know, the problem has been with some U.N. 
bureaucracies. I remember I held a hearing in this room on 
Elian Gonzalez. And Reverend Walker came and presented 
testimony and was waxing eloquent about how the child mortality 
rate is so low. And I had read the reports that came out of 
certain U.N. agencies that suggested that that was so.
    And I asked him--because I know, one, as some of our 
witnesses have said earlier or as Ileana Ros-Lehtinen pointed 
out, trusting government officials to tender honest numbers, 
you know, if you believe that, I will sell you the Brooklyn 
Bridge. There is no reliability. There is no independent 
confirmation. There are no cross-checks or checks and balances 
whatsoever.
    With that said, I also pointed out that Dr. Biscet, an OB/
GYN Afro-Cuban, a great man, who has suffered horribly for his 
views on human rights, belief in human rights, he exposed 
eugenics policies in Cuba, where children who have disabilities 
are routinely killed through coercive abortion so that some of 
these kids never make it to birth because they have been killed 
by the state, and that is another crime against humanity.
    It was called that at the Nuremberg War Crimes Tribunals, 
what the Nazis did to the Polish women and others. It is no 
less a crime against humanity today. Dr. Biscet suffered for 
that. So those numbers are very, very unreliable about child 
mortality and the like.
    And as Ileana Ros-Lehtinen mentioned earlier, there is so 
much showcasing going on, but the ability to discern the real 
facts when others bear witness that that is not the case is 
very large.
    Ms. Fonseca.
    Ms. Fonseca. Yes. I have something to say. I remember that 
in 1990--I don't have a precise amount. I don't have a precise 
number. My youngest son was born prematurely. And where he was 
born, I saw several children die. However, I know that the 
hospital never reported those deaths. It was not known 
nationally or internationally.
    I didn't like to listen to Fidel Castro's speeches, but 
sometimes I had to and I did because we need to know what the 
enemy says. And Fidel Castro is the enemy of Cuba.
    I listened to the dictator's speech that year, and he said 
that--I don't know what the statistic was, but he referred to 
the child mortality rate in Cuba being very low. But having 
been pregnant and having had the difficult situation with my 
son, I had been in two hospitals. And I can assure you that 
many more children had died. But, also, I never received 
adequate medical assistance in order to help me in childbirth.
    In Cuba, medicine and education are only good for those who 
are part of the regime or sympathize with the regime. That is 
my testimony with regards to the child mortality rate in Cuba 
and as to what kind of treatment a Cuban who dissents from the 
regime receives in schools and hospitals.
    Mr. Smith. Mr. Antunez.
    Mr. Garcia. I want to clearly establish something before we 
finish today. Maybe it hasn't been well understood, or maybe it 
is the regime's ability to spew false statistics sometimes 
confuses people.
    I want to tell you that, in spite of the fact that there 
are some dissidents who do support Obama's policy toward Cuba--
what I am referring to are the negotiations--I can tell you 
that it is a minority of dissidents.
    I assure you that the majority of dissident leaders in 
Cuba, of opposition leaders in Cuba, oppose. And an example of 
this is the Forum for Rights and Freedoms, as well as the 
Agreement for Democracy in Cuba. Both of these initiatives have 
been signed by the most important leaders of the Cuban 
resistance.
    There is one last thing which I also want to tell you 
because I know this is part of the permanent congressional 
record. And it is something that has worried me ever since I 
first heard it because I know that the victims don't have the 
possibility of speaking here. I ask those who are seeing me and 
those who are listening to me, all those who are well-
intentioned are listening to this, I ask you to closely follow 
the repressive situation in Cuba right now. I want to call 
attention to how the Cuban National Civil Resistance Front, 
which consists of different organizations, is being repressed, 
not yesterday or not the day before yesterday, but right now, 
are being repressed because they are demanding freedom and 
democracy.
    Finally, the struggle for Cuban freedom has cost a lot of 
pain, a lot of blood, a lot of dead, a lot of political 
prisoners, and that is why we can't allow that a maneuver by 
Raul Castro can result in an understanding with the U.S. 
Government that may contribute to oxygen being provided to this 
dictatorship and, therefore, to the continuity of the regime. I 
assure you that the permanency regime in power--I assure you 
that neo-Castroism can be worse than all these years we have 
suffered.
    I want to thank you for this opportunity and especially 
Chairman Smith--and that the Cuban resistance, in spite of this 
agreement, which we consider to be immoral, in spite of the 
beatings, in spite of the imprisonment, in spite of the pain, 
the Cuban resistance will continue its struggle. We are not 
going to surrender our country's destiny to anyone because we 
are convinced that the principles and the destiny of a country 
should not be decided on a negotiating table. The destiny and 
the freedom of a country should not be decided at a negotiating 
table that the people have been excluded from.
    I thank the U.S. Congress, I thank those in Cuba who are 
listening to us. I return to Cuba after this experience much 
more convinced of the path that we have taken. And I reiterate 
what is my slogan: I will not leave and I will not be quiet. 
Long live free Cuba.
    Mr. Smith. Thank you so much for that eloquent courage. 
Thank you all for your testimonies and leadership.
    The hearing is adjourned.
    [Whereupon, at 1:39 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

 Statement of Christopher J. Burgos of STFA submitted by the Honorable 
 Christopher H. Smith, a Representative in Congress from the State of 
New Jersey, and chairman, Subcommittee on Africa, Global Health, Global 
             Human Rights, and International Organizations
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

   Letter from the International Committee of Former Cuban Political 
      Prisoners submitted by the Honorable Ileana Ros-Lehtinen, a 
          Representative in Congress from the State of Florida
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  Material submitted for the record by Mr. Jorge Luis Garciia Peerez, 
        Secretary General, Cuban National Civic Resistance Front
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  IAC precautionary measure for the Ladies in White submitted by Ms. 
   Berta Soler Fernaandez, leader, Ladies in White (Damas de Blanco)
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  Report by Cubalex submitted by Ms. Berta Soler Fernaandez, leader, 
                   Ladies in White (Damas de Blanco)
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Cuba Section of Trafficking in Persons Report submitted by the 
 Honorable Christopher H. Smith, a Representative in Congress from the 
   State of New Jersey, and chairman, Subcommittee on Africa, Global 
      Health, Global Human Rights, and International Organizations
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  Letter to President Obama from the STFA submitted by the Honorable 
 Christopher H. Smith, a Representative in Congress from the State of 
New Jersey, and chairman, Subcommittee on Africa, Global Health, Global 
             Human Rights, and International Organizations
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Statement on the human rights of all submitted by the Honorable 
 Christopher H. Smith, a Representative in Congress from the State of 
New Jersey, and chairman, Subcommittee on Africa, Global Health, Global 
             Human Rights, and International Organizations
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
